<html>
<title> - IMPROVING THE EFFICIENCY, EFFECTIVENESS, AND INDEPENDENCE OF INSPECTORS GENERAL</title>
<body><pre>[Senate Hearing 114-414]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 114-414

IMPROVING THE EFFICIENCY, EFFECTIVENESS, AND INDEPENDENCE OF INSPECTORS 
                                GENERAL

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           FEBRUARY 24, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                        U.S. GOVERNMENT PUBLISHING OFFICE
94-275 PDF                      WASHINGTON : 2016                        

_______________________________________________________________________________________        
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a9ced9c6e9cadcdaddc1ccc5d987cac6c487">[email&#160;protected]</a>  

        
        
        
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
       Patrick J. Bailey, Chief Counsel for Governmental Affairs
Gabrielle D'Adamo Singer, Deputy Chief Counsel for Governmental Affairs
              Gabrielle A. Batkin. Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
     Troy H. Cribb, Minority Chief Counsel for Governmental Affairs
              Jonathan M. Kraden, Minority Senior Counsel
       Peter P. Tyler, Minority Senior Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                            
                            
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Baldwin..............................................    17
    Senator Peters...............................................    19
    Senator McCaskill............................................    22
    Senator Booker...............................................    25
    Senator Ayotte...............................................    28
Prepared statements:
    Senator Johnson..............................................    39
    Senator Carper...............................................    41

                               WITNESSES
                       Tuesday, February 24, 2015

Hon. Michael E. Horowitz, Inspector General, U.S. Department of 
  Justice........................................................     4
Hon. Steve A. Linick, Inspector General, U.S. Department of State     6
Hon. John Roth, Inspector General, U.S. Department of Homeland 
  Security.......................................................     8
Hon. Patrick P. O'Carroll, Jr., Inspector General, U.S. Social 
  Security Administration........................................    10

                     Alphabetical List of Witnesses

Horowitz, Hon. Michael E.:
    Testimony....................................................     4
    Prepared statement...........................................    42
Linick, Hon. Steve A.:
    Testimony....................................................     6
    Prepared statement...........................................    50
O'Carroll, Hon. Patrick P., Jr.:
    Testimony....................................................    10
    Prepared statement...........................................    76
Roth, Hon. John:
    Testimony....................................................     8
    Prepared statement...........................................    59

                                APPENDIX

FBI Statistics submitted by Senator Booker.......................    82
Responses to post-hearing questions for the Record:
    Hon. Horowitz................................................    85

 
                       IMPROVING THE EFFICIENCY,
         EFFECTIVENESS, AND INDEPENDENCE OF INSPECTORS GENERAL

                              ----------                              


                       TUESDAY, FEBRUARY 24, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Ayotte, Carper, McCaskill, 
Baldwin, Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order.
    Senator Carper, Inspectors General (IGs), we certainly want 
to welcome you and thank you for your thoughtful testimony that 
was delivered well in advance of this hearing, which was very 
helpful.
    In preparing for this hearing, it was interesting, because 
working with Senator Carper, we have issued a mission statement 
for this Committee. It is simple: to enhance the economic and 
national security of America. But, within that, we have also 
listed a lot of priorities in terms of what this Committee is 
about. Our third priority under the Governmental Affairs 
section of this Committee was to identify, reduce, eliminate 
duplication, waste, fraud, and abuse within government, and, 
obviously, when you take a look at the IGs' authorization 
language, that is really what you are about.
    Two weeks ago, we held a hearing with the Government 
Accountability Office (GAO), and at that hearing, I said, 
particularly for this Committee, that agency is one of our 
favorite agencies, not to slight you gentlemen, because within 
the agencies, through the departments, certainly the Offices of 
Inspector General (OIG) are just crucial for our mission and 
for really accomplishing something we all agree on. I do not 
care whether you are Republican or Democrat, whether you are a 
big government person or somebody who is a little bit more 
toward limited government, what government we have we all want 
it to be as efficient and as effective as possible, and that is 
certainly the role that you play within your departments and 
your agencies.
    In the GAO hearing, just in 2 years, the recommendations 
that GAO had made resulted in about $40 billion worth of 
savings, and in the course of the hearing, as we were hearing 
additional recommendations, just a back-of-the-envelope 
calculation showed there were about $100 billion worth of 
potential savings there. And, looking through your testimony, 
it is looking also like, with your efforts, we are saving 
hundreds of millions, if not billions, of dollars, as well. So, 
this is, I think, from my standpoint, an important hearing.
    We certainly want to make sure that the Offices of 
Inspector General remain independent, that you have full access 
to the information that is required, and we are committed to 
helping any way we can legislatively. I know Senator McCaskill 
and Senator Grassley have been working on an Inspector General 
reform bill. I want to be fully supportive of that. I think we 
are looking at, hopefully, introducing that later this week 
with an awful lot of input from this hearing. So, this is very 
timely. We are going to want to use your testimony and your 
advice in terms of how we can craft that. I am hoping that 
Senator Carper will be a willing partner in that, as well.
    Chairman Johnson. And, speaking of Senator Carper, I would 
like to turn it over for your opening comments.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you very much, Mr. Chairman. Thanks 
for pulling this together, and our thanks to each of you for 
joining us.
    It is especially nice to see John Roth. How many days have 
you held your post now? Are you up to a year yet?
    Mr. Roth. Not quite a year yet, Senator. Thank you.
    Senator Carper. All right. I look forward to catching up 
with you and seeing how it is going. But, thank you all for 
being here.
    I said to Michael, if he keeps showing up as often as he 
does, we are going to have to put him on the payroll, because 
he is one of our more faithful witnesses and valued, as well, 
as you all are.
    The Chairman has mentioned our interest in working with 
GAO. I have a statement I want to enter for the record.\1\ I 
will just say this. The Chairman has heard me say this to him. 
Senator Baldwin has heard me say this. And, I do not know if 
our colleague from Michigan has heard me say this, but when Dr. 
Coburn and I for years led the Subcommittee on Federal 
Financial Management, we learned how to leverage the 
effectiveness of a small Subcommittee by working with the full 
Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    And, then we learned how to leverage our effectiveness 
further by working with the Office of Management and Budget 
(OMB) and by working with GAO. And, then we figured out, maybe 
we should work with the IGs, and we learned how to do that. 
And, then we learned how to work with nonprofit organizations 
that have a real interest in more efficient operation of our 
government. And, by doing all of that, we were able to 
accomplish a good deal, sometimes just by writing a letter, 
sometimes just by announcing a hearing, sometimes by just 
making a phone call, threatening to make a phone call, 
introducing a bill. You name it, we can get things done.
    But, we see you very much as our partners in this and part 
of a, really, a good team. The key here is for all of us to be 
pulling in the same direction, and part of the purpose of this 
hearing is to find out how we are doing in that regard and are 
there some things that we need to do legislatively, or maybe 
with a phone call or a letter, that would enable you and the 
people that work with you and your respective teams across the 
Federal Government, would enable you to be more effective in 
your work and more satisfied in your work.
    But, the people of America are counting on us, and as the 
Chairman says, there are a lot of things people do not agree 
much on, but this is one they do. And, I from time to time talk 
to folks who say to me, ``I do not mind paying taxes. I just do 
not want you to waste my money.'' Or, ``I would be willing to 
pay more taxes. I do not want you to waste my money.'' Nobody 
wants us to waste their money. And, part and parcel of what you 
help us do is to reduce that as best we can. And, we can always 
do better, but today's hearing will enable us, hopefully, to do 
better.
    Thank you all.
    Chairman Johnson. Thank you, Senator Carper.
    I also have a formal statement. We will enter both of those 
in the record.\1\ Without objection, so ordered.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    It is the tradition of this Committee to swear in 
witnesses, so if you would all rise and raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Horowitz. I do.
    Mr. Linick. I do.
    Mr. Roth. I do.
    Mr. O'Carroll. I do.
    Chairman Johnson. Thank you.
    I will introduce you right before you testify, so we will 
start out with Michael Horowitz. He is the Inspector General 
for the Department of Justice (DOJ) and Chairs the Council of 
the Inspectors General on Integrity and Efficiency (CIGIE)--one 
of my favorite acronyms, by the way. Prior to joining the 
Inspector General Office, Mr. Horowitz had a decorated career 
as a Federal Prosecutor in the Criminal Division of the 
Department of Justice and in private practice at Cadwalader, 
Wickersham and Taft.
    Mr. Horowitz, we look forward to your testimony.

 TESTIMONY OF THE HONORABLE MICHAEL E. HOROWITZ,\1\ INSPECTOR 
              GENERAL, U.S. DEPARTMENT OF JUSTICE

    Mr. Horowitz. Thank you, Mr. Chairman, Senator Carper, and 
Members of the Committee. Thank you for inviting me to testify 
today, and thank you for the Committee's bipartisan support for 
Inspectors General.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Horowitz appears in the Appendix 
on page 42.
---------------------------------------------------------------------------
    Effective and independent oversight has never been more 
important, but to conduct that oversight, an IG must have 
timely and complete access to agency records. This is an issue 
of utmost importance, as evidenced by the letter signed by 47 
Inspectors General in August 2014 strongly endorsing this 
principle.
    The IG Act could not be clearer. Inspectors General are 
entitled to complete, timely, and unfiltered access to all 
documents and records within the agencies' possession. Delaying 
or denying access imperils an IG's independence, impedes our 
ability to provide effective and independent oversight, and 
erodes the morale of the dedicated professionals that make up 
our staffs.
    My office knows these problems all too well. In particular, 
the Federal Bureau of Investigations (FBI) continues to take 
the position it first raised in 2010, that the IG Act does not 
entitle my office to access to certain records in the FBI's 
possession, such as Grand Jury, Title III electronic 
surveillance, and Fair Credit Reporting Act information.
    In May 2014, the Department's leadership asked the Office 
of Legal Counsel (OLC) to issue an opinion addressing the FBI's 
legal objections. However, 9 months later, we are still waiting 
for that opinion. I cannot emphasize enough how important it is 
that OLC issue its opinion promptly, because the existing 
process at the Department undermines our independence and 
essentially assumes the correctness of the FBI's position. The 
status quo cannot continue.
    We appreciate the strong support from Congress in trying to 
address these issues. In December 2014, a provision was 
included in the Appropriations Act, Section 218, which 
prohibits the Justice Department from using appropriated funds 
to deny my office timely access to records unless in accordance 
with an expressed limitation in the IG Act. While the law only 
recently went into effect, it is clear it has had a positive 
effect with some components.
    However, the FBI maintains its contrary legal position to 
this day. As a result, it is continuing its costly, wasteful, 
and time consuming process of reviewing documents responsive to 
our requests to determine whether it can produce them to us. As 
we are directed to do by Section 218, we have now recently 
reported in three instances, including whistleblower cases, 
where the FBI's process has been inconsistent with the 
provision of Section 218.
    It is long past time to resolve this legal dispute. The 
FBI's position contradicts the clear intent of the IG Act, 
Congress's intent when it created our office, the FBI's and the 
Department's practice prior to 2010, where it frequently 
provided the very same categories of information it is now 
claiming it cannot provide us with, and two legal decisions by 
Federal District Judges finding that, in fact, we, the OIG, are 
entitled to access Grand Jury information.
    We remain hopeful that OLC will conclude that the IG Act 
entitles my office to access all records in the Department's 
possession. However, should the OLC decide otherwise, I would 
be pleased to work with the Committee to develop an appropriate 
legislative remedy.
    Let me briefly mention a few areas where the ability of 
Inspectors General to conduct strong and effective oversight 
could be enhanced.
    One such area is the capacity of Inspectors General to 
obtain testimony from former agency employees, contractors, and 
grant recipients. While the IG Act empowers us to subpoena 
records from individuals, we cannot require them to testify, 
even if they have critical evidence. While I believe any such 
authority should include protections to ensure it is used 
appropriately and only when necessary and does not 
inadvertently impair Justice Department prosecutions, I am 
confident such protections can be developed while also 
empowering Inspectors General to carry out their 
responsibilities.
    Another area where strong and effective Inspectors General 
oversight could be enhanced is by enabling us to more 
efficiently obtain and match readily available information that 
we already have access to in furtherance of our efforts to 
combat waste, fraud, and abuse. My colleague, Inspector General 
O'Carroll, will address this issue further when he discusses 
the need to address the Computer Matching Act limitations that 
we face.
    We also need to address concerns that have been raised 
relating to the work of CIGIE's Integrity Committee, including 
with respect to the timeliness of its work and the transparency 
of its efforts. Inspectors General must maintain the highest 
levels of accountability and integrity, and as Chair of the 
Council of Inspectors General, I will make it a top priority to 
improve the procedures of the Integrity Committee.
    Finally, I would like to note that there are currently many 
vacancies in the Inspector General community. As this Committee 
has recognized previously, Acting Inspectors General and career 
staff carry on the work of the offices during a vacancy and 
they do it with the utmost of professionalism. However, a 
sustained absence of confirmed leadership is not healthy for 
any office. On behalf of the Inspector General community, I 
would encourage swift action with respect to selecting and 
confirming candidates for current and future vacant Inspector 
General positions.
    In conclusion, I look forward to working with this 
Committee to ensure that Inspectors General continue to be 
empowered to provide the kind of independent and objective 
oversight for which they have become known and for which the 
taxpayers deserve.
    I would be pleased to answer any questions the Committee 
may have.
    Chairman Johnson. Thank you, Mr. Horowitz.
    Our next witness is Steve Linick. He has been the Inspector 
General for the Department of State and the Broadcasting Board 
of Governors (BBG) since September 2013. I would note that was 
a position that was held vacant for quite some time, correct? 
Prior to his appointment, he served as the first Inspector 
General of the Federal Housing Finance Agency. Mr. Linick.

   TESTIMONY OF THE HONORABLE STEVE A. LINICK,\1\ INSPECTOR 
               GENERAL, U.S. DEPARTMENT OF STATE

    Mr. Linick. Thank you, Chairman Johnson, Ranking Member 
Carper, Members of the Committee. Thank you for inviting me to 
testify today regarding the work of OIG at the Department of 
State and the Broadcasting Board of Governors.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Linick appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    I have had the privilege to lead the OIG and its talented 
staff for the past 17 months. This OIG differs from others in a 
number of respects.
    First, OIG's focus is on U.S. Government operations 
worldwide, involving more than 72,000 employees in 280 overseas 
missions. This is in addition to OIG's oversight of the 
Department's and BBG's domestic operations.
    Second, OIG has historically and as required by law served 
as the Department of State's inspection arm. We have highly 
experienced inspectors who inspect domestic and overseas units 
around the world. The reports of these inspections, which focus 
on issues ranging from security to leadership, are highly 
valued within the Department and the larger foreign affairs 
community. Since the beginning of my tenure, we have redoubled 
our efforts to focus on improving security for our people and 
facilities, improving oversight of contracts and grants, and 
enhancing information technology security. Let me elaborate a 
bit on each.
    First, protecting the people who work in the Department is 
our top priority. OIG has inspected physical security at 
overseas posts for years. However, since the September 2012 
attacks on U.S. diplomatic facilities in Benghazi, Libya, OIG 
has stepped up its oversight efforts related to security. There 
is no doubt the Department has made progress in improving 
overseas security. Nonetheless, challenges still remain. 
Through our inspections and audit work, we continue to find 
notable security deficiencies. For example, our audit of the 
Local Guard Program found that firms providing security 
services were not fully vetting local guards they hired to 
protect our embassies, placing at risk our posts and personnel. 
Also related to security, OIG is currently involved in 
reviewing the Department's reported compliance with 
recommendations made by the Accountability Review Board (ARB) 
convened in the aftermath of the 2012 attacks in Benghazi.
    Second, OIG has enhanced its efforts to oversee the 
Department's management of contracts and grants, which totaled 
approximately $10 billion in 2014. Contract and grant 
management deficiencies, including lack of training, weak 
oversight, and inadequate monitoring, have come to light 
repeatedly in our audits, inspections, and investigations over 
the years. They were highlighted in two recent Management 
Alerts that I provided to senior management officials.
    Last, we continue to be very concerned about the 
Department's management of information technology (IT) 
security. OIG assessments of the Department's efforts to secure 
its IT infrastructure have found significant recurring 
weaknesses, including inadequate controls around who may access 
and manipulate systems. Vulnerabilities in the Department's 
systems also affect OIG's systems, which is part of the same 
network. As we noted in a November 2013 Management Alert, there 
are thousands of administrators who have access to the 
Department's databases. That access runs freely to OIG's IT 
infrastructure and creates risks to our operations.
    Since joining OIG, I have adopted certain practices to 
enhance the effectiveness and efficiency of OIG's independent 
oversight of the Department and the BBG. Let me take this 
opportunity to briefly mention some of them.
    As IGs, we work together with our Departments, contributing 
to their success by assisting them in becoming more efficient, 
effective, and economical. To be successful at this job, it is 
important to have effective and cooperative working 
relationships with Department principals, as well as open lines 
of communication. To this end, I meet regularly with Deputy 
Secretary Heather Higginbottom, about once a week, and 
periodically with Secretary John Kerry to discuss OIG's work as 
well as the most critical issues facing the Department. I also 
meet with Under Secretaries and Assistant Secretaries.
    In addition to meeting regularly with Department 
principals, I adopted the practice of issuing Management Alerts 
and Management Assistance Reports. They supplement and enhance 
the impact of our audits, inspections, evaluations, and 
investigations by alerting senior officials in the Department 
to significant issues that require immediate corrective action. 
Often, these issues are systemic or cross-cutting. To date, 
senior management has engaged with us on the issues we have 
highlighted and have begun to take steps to respond to our 
concerns.
    We have also created a new office in OIG, the Office of 
Evaluations and Special Projects (ESP). This office publishes 
evaluations and special projects, including some of our 
Management Alerts, while complementing the work of OIG's other 
offices. For example, we are currently undertaking a joint 
review with the Department of Justice OIG of a number of 
shooting incidents in Honduras in 2012 involving the Drug 
Enforcement Agency (DEA) and Department of State personnel and 
resources. An attorney in this new OIG office is leading our 
office's efforts to enhance whistleblower protections.
    Before I was Inspector General, I spent many years as a 
Federal Prosecutor. One of my areas of focus was procurement 
fraud. Through that work, I came to appreciate the value of 
criminal and civil remedies, including suspension and 
debarment, to combat such fraud. Since arriving at OIG, we have 
enhanced our efforts in both our Office of Audits and 
Investigations to identify and refer appropriate cases to the 
Department for suspension and debarment.
    Drawing on my experience as a prosecutor, I have also 
initiated a program to place one or more qualified OIG 
employees as Special Assistant United States Attorneys in 
appropriate positions in the Department of Justice. We have 
found that having knowledgeable employees in such positions 
leads to quicker and more effective investigation and 
prosecution of fraud cases.
    Finally, I would like to close by talking about the impact 
of our work. In my written testimony, I quantified some of the 
financial metrics demonstrating OIG's positive return on 
investment to American taxpayers. But, financial statistics do 
not adequately reflect some of our most significant impacts: 
The safety and security of people and the integrity of the 
Department's operations and reputation. Those are key 
motivators for our employees, many of whom are on the road for 
long periods of time or who serve for extended periods at 
dangerous locations. I am honored to serve alongside and lead 
them.
    In conclusion, Chairman Johnson, Ranking Member Carper, and 
Members of the Committee, thank you again for the opportunity 
to testify today. I take seriously my statutory requirement to 
keep the Congress fully and currently informed and I look 
forward to your questions.
    Chairman Johnson. Thank you, Mr. Linick.
    Our next witness is Mr. John Roth. He has served since last 
March as the Inspector General for the Department of Homeland 
Security (DHS). In addition to previous work for the Food and 
Drug Administration (FDA), Mr. Roth had a 25-year career as a 
Federal Prosecutor, including Chief of Staff to the Deputy 
Attorney General. Mr. Roth.

  TESTIMONY OF THE HONORABLE JOHN ROTH,\1\ INSPECTOR GENERAL, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Chairman Johnson, Ranking Member Carper, and 
Members of the Committee, thank you for inviting me here today 
to testify.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Roth appears in the Appendix on 
page 59.
---------------------------------------------------------------------------
    For an IG, independence is the coin of the realm. The GAO's 
yellow book describes it as the State of mind that allows an 
individual to act with integrity and exercise objectivity and 
professional skepticism. Professional skepticism is an attitude 
that includes a questioning mind and a critical assessment of 
evidence, and in a nutshell, that is my job. I am a 
professional skeptic. I act as an agent of positive change 
within the Department by having the freedom to be independent 
and objective. I am here to ask the difficult questions, to 
challenge the Department I work for to be better, to be more 
efficient, to ensure rigor in Departmental operations, and to 
look for and eliminate waste.
    I am independent of the Department while, at the same time, 
part of it. The Inspector General Act gives me significant 
authority and substantial protection from undue influence. My 
salary is fixed by statute and I can be removed only by the 
President. I have, with very few narrow exceptions, the 
authority to conduct any investigation or any audit and write 
any report concerning Department operations that, in my 
judgment, is necessary or desirable. The law gives me the 
absolute right to protect the identity of whistleblowers, upon 
whom I depend to expose waste, fraud, and abuse. I have control 
over my own personnel and operations and employ my own counsel.
    Yet, for all the substantial power and protection the 
Congress has given me, it still requires the men and the women 
within my office to have the dedication and the courage to 
ensure compliance with the Act, and it requires the Secretary 
to understand the very valuable role that the Inspector General 
plays.
    In addition to independence, transparency is critical to my 
work. The Act contemplates that my reports, to the greatest 
possible extent, are available to the public. Openness and 
transparency are critical to good government. The Department 
sometimes raises objection to certain information in our 
reports, marking parts of our reports as ``For Official Use 
Only,'' or ``Law Enforcement Sensitive.'' These designations 
are not recognized in the law, and in my experience, they risk 
being used to attempt to avoid revealing information that is 
embarrassing to the agency involved.
    That being said, we, of course, need to ensure that 
information that could cause harm to DHS is not revealed. In 
those situations, I use my discretion to redact information 
from public reports. To assist me in exercising that 
discretion, I require requests to come from the component or 
agency head, coupled with an articulation of the actual 
specific harm that would result from such a disclosure. Too 
often, the fear of harm is highly speculative and fails to 
balance the need for transparency against the risks of 
disclosure.
    Recently, we have had issues with the Transportation 
Security Administration (TSA) designating material as 
``Sensitive Security Information (SSI), within a report 
concerning the IT operations at JFK Airport in New York. The 
designation of SSI is in the absolute and unreviewable 
discretion of the Administrator of TSA and improper disclosure 
of it by me would carry significant administrative and civil 
penalties. What was especially troubling about our episode, in 
my view, was the length of time it took--almost 6 months--to 
get resolution of this issue, and the fact that my security 
experts who wrote the report were confident that the 
information that they wanted to publish did not harm IT 
security, and that similar information had been published only 
months earlier in previous audit reports without objection.
    The SSI designation is a useful tool to protect sensitive 
information in a manner that gives TSA flexibility. However, I 
am worried that SSI can be misused, as I believe it was in this 
circumstance, to prevent embarrassment. We intend to conduct a 
formal review of TSA's stewardship of the SSI program and 
report those results to the Secretary and the Committees with 
jurisdiction over it.
    A brief word about resources for the OIG. The budget for 
our office is relatively tiny. We represent just 0.23 percent 
of the DHS budget, yet we have an outsized impact on the 
operation of the Department. For every dollar that is given to 
the OIG, we return more than $7 in savings, as reflected by our 
statutory performance measures. This number, in fact, vastly 
understates our performance, because much of our best work--
audit and inspections report that shed light on problematic 
programs, for example--do not carry with it a cost savings, yet 
the value to the American taxpayer is incalculable.
    Unfortunately, our budget has actually shrunk since fiscal 
year (FY) 2012. As a result, our onboard strength has decreased 
by about 15 percent. We have been forced to cut training to 
less than a third of what we have deemed to be appropriate, 
reducing our ability to do our job and decreasing morale. And 
yet, at the same time, DHS's authorized workforce has grown by 
about 5,000, representing a 2.3 percent increase. So, the 
Department continues to grow, but the Inspector General's 
Office, the one entity that is charged with saving money and 
creating efficiency, shrinks. This, I believe, represents a 
false economy.
    Finally, I should discuss briefly the shutdown of DHS, 
which will occur this Friday unless Congress acts. For my 
office, this means the oversight function will come to an end. 
We will stop work on all our audits and reviews except for a 
few auditors who are working on FEMA's use of the Disaster 
Relief Fund, and our special agents in the field who are 
engaged in criminal investigations. Those who stay will be 
required to work, but be in unpaid status. In that regard, they 
are like the majority of Homeland Security employees. We will 
ask them to protect our borders, patrol our seas, ensure the 
security of the airplanes we fly on, protect the President, 
keep us safe from those who have sworn to do us harm, but we 
will ask them to do so without an assurance of when their next 
paycheck will come. Additionally, during this time, as it has 
been since October, the Department will be deprived of the 
budget stability necessary for coherent management of DHS 
programs and operations.
    Mr. Chairman, that concludes my prepared statement. I, of 
course, welcome any questions.
    Chairman Johnson. Thank you, Mr. Roth.
    Our next witness is Patrick O'Carroll, Jr. He has been the 
Inspector General for the Social Security Administration (SSA) 
since 2004 and served a number of years prior to that in the 
office. Mr. O'Carroll has also 26 years of service for the 
United States Secret Service. Mr. O'Carroll.

   TESTIMONY OF THE HONORABLE PATRICK P. O'CARROLL, JR.,\1\ 
     INSPECTOR GENERAL, U.S. SOCIAL SECURITY ADMINISTRATION

    Mr. O'Carroll. Good morning, Chairman Johnson, Ranking 
Member Carper, and Members of the Committee. I want to welcome 
the new Members of the 114th Congress and the new Members of 
this Committee. Thank you for the invitation to participate in 
this discussion.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. O'Carroll appears in the Appendix 
on page 76.
---------------------------------------------------------------------------
    In 2010, my office identified a thousand people who were on 
Social Security Disability while also collecting Federal 
Workers' Compensation, but without reporting that to the Social 
Security Administration. We determined that the Social Security 
Administration overpaid these people over $40 million. 
Unfortunately, we did not have a computer matching agreement 
with the Department of Labor (DOL), so SSA could not recover 
those funds and we could not pursue criminal cases.
    Today, I would like to highlight three tools that would 
strengthen our ability to detect fraud, waste, and abuse, 
report operational weaknesses or vulnerabilities, and invest in 
program integrity initiatives.
    First, my office has shown that data matching can be 
extremely effective in identifying Social Security improper 
payments. For example, our auditors matched Homeland Security 
travel data against SSA records. We identified thousands of 
Supplemental Security Income recipients who were outside of the 
United States for more than 30 days, making them ineligible to 
receive these payments. Based on the match, we estimated that 
35,000 people improperly collected $150 million.
    We notified SSA and made policy recommendations, but we 
could not take action on specific individuals because we did 
not have a computer matching agreement. The Computer Matching 
and Privacy Protection Act (CMPPA) requires us to secure a 
matching agreement through SSA's Data Integrity Board. 
Unfortunately, the process is difficult and can take a year or 
more. Thus, we undertook this Homeland Security match for 
statistical purposes only, which is allowed under the CMPPA 
without an agreement. But, similar to the Workers' Compensation 
match I mentioned earlier, we could not forward any names to 
SSA nor could we explore any criminal prosecutions.
    We also have delayed a promising investigative project with 
the Department of Transportation Office of Inspector General. 
With a data match, we could identify licensed commercial 
drivers who concealed work activity so that they could collect 
disability payments. GAO examined this issue in 2008 and 
referred critical findings to us, but we have not been able to 
undertake this type of work without a matching agreement.
    The CMPPA requirement compromises our independence and 
delays time sensitive audit and investigative efforts. An 
exemption to the law to permit matches related to audits and 
investigations designed to identify fraud and waste would 
greatly benefit the IG community and all taxpayers. A matching 
agreement exemption would allow other potential projects, 
including matching Social Security data against State marriage 
records, Workers' Compensation data, and vehicle registration 
databases. These and other data can help our office and SSA 
identify fraud and prevent improper payments.
    The Health and Human Services (HHS) and its OIG are already 
exempt from data matches designed to identify fraud, waste, and 
abuse. It makes sense to extend this exemption to all OIG data 
matches for the same purpose.
    Additionally, an exemption to the Paperwork Reduction Act 
(PRA) for general audits or investigations would benefit the IG 
community. Because we oversee a benefit program, our audits 
require us to survey beneficiaries and other members of the 
public. Often, we want to collect identical information from 
many individuals. OMB has indicated that these audits are 
subject to approval under the Paperwork Reduction Act. However, 
this process can take several months, which hinders our ability 
to complete audits on critical issues and provide timely 
responses to our stakeholders. A PRA exemption for general 
audits would improve our ability to be responsive to you and 
allow us to identify more improper payments and fraud.
    For example, we would like to interview representative 
payees serving vulnerable beneficiaries who have been overpaid 
many times. We want to determine if payees are aware of and 
understand SSA's reporting requirements. With PRA exemption, we 
could complete this audit without delay, to determine if SSA 
needs more outreach to the representative payees, and make 
payees more accountable for the funds that they oversee.
    In my role at Social Security, I have long been an active 
member of CIGIE. My colleagues here today, and all CIGIE 
members, work to address common challenges and share oversight 
best practices. As this Committee knows, my office has taken a 
lead role for CIGIE in measuring agency compliance with recent 
legislation and mandates to reduce Federal improper payments.
    To strengthen our ability to identify and prevent improper 
payments, we support the establishment of a self-supporting 
fund for integrity activities. We have proposed to make 
available to SSA and our office a portion of the actual 
collected overpayments. These funds would be used only for 
integrity activities that would provide a significant return on 
investment.
    An integrity fund could prove effective for deceased payee 
fraud investigations, a significant workload for our special 
agents. Last year, we investigated over 600 people who misused 
the Social Security benefits of someone who was deceased. 
Criminal convictions of about 150 people generated $35 million 
in recoveries and restitution. If we had an integrity fund, we 
could reinvest a portion of those funds for other integrity 
work.
    In conclusion, skillful, independent, and timely oversight 
is paramount to the integrity and efficiency of all Federal 
agencies. My office has a 20-year distinguished history of 
conducting effective audits and leading high-impact 
investigations. However, we still face obstacles in our efforts 
to promote the integrity and efficiency of SSA's programs and 
operations. In sum, three specific tools can help us do our 
work better and faster: a CMPPA exemption, a PRA exemption, and 
an integrity fund. We appreciate this forum for our discussion 
and we look forward to working with you as you consider our 
proposals.
    Thank you again for the invitation to testify today and I 
will be happy to answer any of your questions.
    Chairman Johnson. Thank you, Mr. O'Carroll.
    I think as we all just witnessed here, we have four 
Inspectors General, great integrity, and I just really 
appreciate your thoughtful testimony.
    Senator McCaskill, I did mention before you got here in my 
opening comments the work you have been doing with Senator 
Grassley on a bill to certainly codify some of the requests 
they had, and if you want to do it right now, that is fine, or 
before your question.
    Senator McCaskill. I can do it before my questions, but 
thank you for asking that.
    Chairman Johnson. No, I appreciate your efforts on that.
    There are a number of suggestions that have been made here, 
some recommendations of things that we need to, I think, 
legislatively provide so you can do your job. I do want to go 
first to Mr. Horowitz and probably Mr. Roth about Acting IGs. I 
know in terms of the Veterans Administration (VA), we have had 
an Acting IG. We have had some real problems in the VA. Senator 
Baldwin and I have certainly witnessed what is happening in 
Wisconsin. I am concerned about that. Senator McCaskill and I 
were involved in, I guess, investigations regarding the Acting 
IG in the Department of Homeland Security, and we saw the 
problem there.
    The question I have for you, Mr. Horowitz, what is the 
problem in appointing permanent IGs? In terms of the VA, it was 
well known, I think it was back in November 2013, that the 
permanent IG was going to retire as of December. That position 
has been vacant now for basically 14 months. What is the hang-
up in terms of identifying? Is it just lack of available 
individuals? Is it lack of will?
    Mr. Horowitz. That is an excellent question and I think one 
of the issues is simply making these positions priorities in 
terms of the nominating process, the vetting process, and then 
the confirmation process.
    Speaking--I think you have three, actually, of us are in 
agencies that have had this issue arise. My own agency, Glenn 
Fine, my predecessor, announced in 2010 that he was going to be 
leaving in January 2011. I was nominated in July 2011 and 
confirmed in March 2012. So, even with sufficient notice, the 
process took a lengthy period of time.
    There are plenty of available candidates who are interested 
in becoming IGs. I know from 6 weeks now on the job as Chair of 
the Council of IGs, we send resumes to the Presidential 
Personnel Office of interested candidates that we have looked 
at and vetted, and there has to be a commitment to move these 
nominations promptly.
    Chairman Johnson. How many vacancies are there, and how 
many people have been nominated for those positions?
    Mr. Horowitz. If I recall correctly, both Presidentially 
confirmed positions and designated Federal entity positions, I 
believe the number is 11 vacancies, and there is one nominee 
for those 11 slots pending.
    Chairman Johnson. So, I think that is a problem. If there 
are plenty of people that are available for the position, we 
need to get those nominated, and certainly, I think, this 
Committee will be dedicated to move those through the 
confirmation process as quickly as possible.
    Mr. Roth, you obviously got into a Department in the Office 
of Inspector General where there were some real morale problems 
and we had an Acting Inspector General. Senator McCaskill and 
I, in our investigation of that position, certainly saw the 
corrosive and the improper result of having an Acting Inspector 
General that might be vying for the permanent Inspector 
General. Can you speak a little bit to what you found when you 
entered your office.
    Mr. Roth. Well, certainly, unfortunately, or perhaps 
fortunately, you are in as good a position as anyone to 
understand the effect on the morale of the individuals there, 
both because of the threat to the independence of the IG as 
well as the appearance of the threat to the independence of the 
IG. And, it really does not matter if you are independent or 
not independent. Once you have lost that perception of 
independence, you are pretty much done, because the only 
difference between, as I like to tell Secretary Johnson, the 
only difference between me and the rest of the 225,000 people 
in the Department of Homeland Security is that I am, in fact, 
independent and am perceived to be that way. That is the value 
that we add, and once you lose that, you can never be effective 
again.
    Chairman Johnson. In your testimony, you used, I think, an 
important word. You said ``courage.'' Can you describe an 
instance of courage that was required by an Inspector General?
    Mr. Roth. I think this happens all the time, and I think 
you see that, for example, with Mr. Horowitz's situation with 
the FBI, where this is a situation in which two very powerful 
forces are at loggerheads. And, the fact that you have a 
confirmed Inspector General who has all the protections of the 
IG Act--that our salary is fixed, we do not get a bonus, they 
cannot fire us, we can do any audit that we choose to do that 
we believe is incredibly important to be able to really speak 
truth to power. And, that is, in fact, part of our job.
    Chairman Johnson. What type of pressure do you come under, 
do Inspectors General come under, that require courage to push 
back on?
    Mr. Roth. Well, you have to admit, we are not very popular 
sometimes, because no one likes to be audited, right. We are in 
the bad news business. Oftentimes, we go in and we expose 
programs that have significant waste or significant problems to 
it, and we do so with a certain rigor based on the training 
that our auditors receive to be able to do it in a regimented 
sort of logical way. And, that is very unpleasant for the 
people being audited, and, of course, there is going to be 
push-back with regard to that and it is very important to be 
able to simply hold your guns with regard to that.
    I will say that I am fairly fortunate, because the 
Secretary in my Department understands the value of the IG and 
is a fairly sophisticated individual when it comes to my role 
versus his role. So, I am fortunate there, but I think other 
people may have some horror stories.
    Chairman Johnson. Thank you. I will get to the other two. I 
want to go back to Mr. Horowitz because Mr. Roth just used a 
word I was going to use, ``push-back.'' In the case of the FBI 
denying you access to information, is there legitimate push-
back from them? Is there a legitimate reason for their 
classification? And, I will be asking across the board, whether 
it is matching or some of these other areas that you need help 
on. What are the legitimate reasons why there are so many 
Department personnel that do push back? Specifically talk about 
the FBI.
    Mr. Horowitz. In the access area, we got access to 
information up to 2010 in all of these categories. No law 
changed in 2010. No policy changed. The IG Act stayed the same, 
the Grand Jury statutes. Everything stayed the same. It was 
simply a decision by the General Counsel's Office in 2010 that 
they viewed now the law differently, and as a result, they were 
not going to give us that information.
    In the national security letter reviews that we did, we 
have done a lot of national security reviews of the FBI's use 
of the authorities Congress has given to them. In the middle of 
our third review of the national security letter matter, which 
we released last year, information we got at the start of the 
review, prior to 2010, was no longer given to us after the 
change in legal position, credit information. It made no sense. 
And, it is, frankly, from my standpoint, inexplicable, other 
than a new lawyer making a new decision about a law that had 
not changed. And, it should not be allowed to stand.
    There is nothing more I can do at this point, frankly, 
other than having testified about seven times now and sending 
the letters pursuant to the Appropriation Act to the 
appropriators and to you and the other Committees that oversee 
us and try and get some action. Our power comes from speaking 
out publicly and hoping that there is followup and action as a 
result.
    Chairman Johnson. Well, hopefully, the seventh time is a 
charm.
    Mr. Horowitz. Yes. [Laughter.]
    Chairman Johnson. With that, Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Again, our thanks to each of you for your testimony and for 
your responses to our questions.
    I want to first take up the issue of those agencies for 
whom no permanent or Senate confirmed IG is in place. A year or 
two ago, Dr. Coburn and I, along with a number of people on 
this Committee, sent a letter to the President, and we said 
this is a problem and it needs your attention. And, I think we 
got some response, and there were a number of IGs that were 
nominated subsequent to that.
    But, I believe there are at least two off of that list that 
we wrote to the President about some time ago that are still 
situations where the IG is there in an acting position. Do you 
know if that is correct?
    Mr. Horowitz. I believe that is correct. There are--in each 
of--in several of the open positions, vacant positions, several 
IGs who have spent many months as acting, done a very strong 
job, but are sitting there in acting positions for over a year.
    Senator Carper. Mr. Chairman and colleagues, we may want to 
do again what we did a year or so ago and keep raising this as 
an issue, try to establish a sense of urgency, and I would hope 
that the other colleagues on our Committee would like to join 
us in doing that.
    Mr. Roth, Chairman Johnson, and Senator Sasse, who is a new 
Member of our Committee, were down on the Mexican border in 
South Texas a couple of weeks ago, and one of the things we 
heard in terms of strengthening the border, from a number of 
folks who said the real key to border security is technology 
and finding and deploying force multipliers to help make the 
men and women on the ground, the Border Patrol and others, more 
effective in their work.
    One of the force multipliers that we witnessed personally, 
up close and personal, were drones, and we talked a lot with 
the folks there about that technology and its effectiveness and 
how cost effective it is. I am not going to get into this today 
in a public setting, but we very much need to somehow reconcile 
the findings of your office with the needs and the perceived 
needs, strongly held views, if you will, of the Department of 
Homeland Security.
    I hope this year we are going to take up again Homeland 
Security legislation, immigration reform, I hope, border 
security legislation, and there is going to be a strong 
interest in deploying more assets in terms of drones. We have 
to make sure that the money that we are spending, the taxpayer 
money that we are spending, is cost effective. So, we need for 
you to work with us. We need for you to work with the agency to 
try to resolve this issue so that we make informed decisions 
going forward. We will just leave it at that for right now.
    Mr. O'Carroll, I once asked a member of my staff--he was 
talking to me about a Death Master File (DMF), and I said, what 
is the Death Master File, and he said it is a file you do not 
want your name to be on, because---- [Laughter.]
    Because if it is, you are dead. And, I said, well, you are 
probably right. I am not ready for that yet. But, I understand 
that, as you know, and you spoke to it in your testimony, a lot 
of people whose names are on that file who still receive 
benefits from a variety of Federal agencies, and I am led to 
believe it has something to do with our reluctance at the 
Social Security Administration to more broadly share that 
information to other agencies who have a legitimate need for 
that in terms of program integrity.
    I think you touched on this in your testimony. Come back 
and help me. Drill down on this with us, if you will, because 
we actually passed legislation out of this Committee last year 
as part of our improper payments legislation. We ran into a 
brick wall over in the House of Representatives, in the 
Subcommittee of Ways and Means, and I just want to get to the 
bottom of this and see if we cannot avoid that brick wall and 
if we cannot actually get this done this year. I think we are 
leaving a lot of money--tens of millions, maybe hundreds of 
millions of dollars--on the table, and it is not just 
unfortunate, it is tragic. Please.
    Mr. O'Carroll. Well, Senator Carper, about 2.5 million 
people die every year, and that information is shared with SSA 
by the States, and that is usually done electronically. 
Sometimes, it is very good. Sometimes, it is not as good. And, 
as you were saying, you do not want to be on that list for a 
couple reasons. One is you do not want to be on the list 
because you are dead. But, you also do not want to be on the 
list and be alive but everyone thinks you are dead, because you 
will not be able to get credit.
    So, anyway, we have done a lot of work on that. We have 
worked with SSA. We have kept your Committee and the Committees 
on the House side informed on this. And, I guess an easy 
example of where there is an issue on it is that every year, 
with the amount of information coming into SSA, if a person is 
not on benefits, oftentimes, that record may not be corrected 
by SSA.
    So, as an example, on an audit that we just did, we found 
about 6.5 million people that are on SSA's records that are 
over 112 years of age.
    Senator Carper. How many?
    Mr. O'Carroll. Six-point-five million people are on SSA's 
records as alive when they are over 112 years of age.
    Senator Carper. That is remarkable.
    Mr. O'Carroll. I was going to say, usually a handful of 
people are in that age group as it is.
    So, anyway, that is a major issue. So, when the Death 
Master File is released, that information on it is going to be 
showing that a person who is deceased is alive. Then, fraud or 
other misuse can happen with that information. So, that is one 
issue on it.
    The other issue is that that information is only shared 
right now, or the death information that SSA has is shared with 
about eight benefit-paying agencies. So, if you are not a 
benefit-paying agency, you are not getting all that death 
information. So, it is turned over from SSA first to the 
benefit-paying agencies and then the Department of Commerce, 
and the Department of Commerce then sells a public version to 
the financial industry. And, when it hits the financial 
industry, that is where the problems are with the accuracy. So, 
if it is showing you as dead when you are alive, or alive when 
you are dead, you are going to have those type of credit 
issues.
    Recent legislation mandates a delay in sending out the 
information, so that if it is incorrect and you are alive and 
you are reflected as deceased, there will be 3 years to fix it 
before it goes out. Now, as it goes out immediately, you are 
going to be spending a large amount of your time trying to go 
to all the credit industries and explain to them that you are 
alive when, because of a glitch you are on the Death Master 
File.
    So, anyway, we have done a lot of work on the Death Master 
File. We have made a lot of recommendations. We are trying to 
get SSA to share more with the Federal agencies through the 
``Do Not Pay'' initiative so that they will have the most up-
to-date information. And, we have also asked SSA to extend 
resources to fixing the records of those six million people 
that are over 112 years of age, but SSA is saying that they are 
unable to do it because they are using their resources just to 
take care of people that are on benefits and that it would be a 
bridge too far for them to go back and make those corrections 
at this time.
    Senator Carper. All right. Well, we look forward to 
continuing to work with you on this. Thank you all very much.
    Chairman Johnson. Thank you, Senator Carper.
    The order of questioning will be Senator Baldwin, Senator 
Peters, Senator McCaskill, and then Senator Booker. Senator 
Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, and I want to thank you, Mr. 
Chairman and Ranking Member Carper, for holding this very 
valuable hearing.
    And, I want to thank the witnesses for being here today and 
sharing your insights and your time. Inspectors General are 
clearly essential to the proper functioning of government, and 
you and your staffs are internal auditors. You are the stewards 
of taxpayer dollars, the agents of quality control, and the 
enemies of waste, fraud, and abuse. But, to achieve your goals, 
Inspectors General must be properly resourced as well as 
provided with unfettered access to both required information 
and agency officials. Inspectors General must also be empowered 
to followup on findings and recommendations of their audits and 
investigations. And, without an ability to compel the agency in 
question to take remedial action, an IG's impact is severely 
limited.
    As the Chairman referenced in his opening remarks, he and I 
have seen an example of this in the case of the Department of 
Veterans Affairs Office of Inspector General and the Tomah VA 
Medical Center in Tomah, Wisconsin. I recognize that there is 
not a representative here from the VA Office of Inspector 
General, but I guess I have some more general questions about 
best practices but, let me just go a little bit further. I have 
questions for each of the witnesses as to how each of your 
offices handle issues of followup and transparency.
    In the case of the Tomah VA facility, the VA Office of 
Inspector General found evidence of troubling opioid 
prescribing practices and recommended certain changes at the 
facility and the regional level. However, the Secretary's 
Office in Washington was unaware of these recommendations, and 
it seems that whatever reforms and recommendations were put in 
place at the local facility, Tomah, either had not been 
implemented, had not been implemented effectively, or were 
insufficient to address the issue.
    It makes no sense to me that an IG would make 
recommendations to solve problems at a local facility and then 
entrust that facility solely, or with regional oversight, to 
implement these changes without Federal oversight, without 
oversight from its managers who may be in Washington or based 
elsewhere. So, I have three questions related to this for each 
of you.
    If an Office of Inspector General recommends changes at a 
local Federal facility, should the Federal offices in 
Washington who are charged with overseeing those local 
facilities be made aware of these recommendations? Second, how 
do you ensure recommendations are implemented effectively? And, 
third, what role do transparency and communication play in 
assuring compliance? And, why do we not just go starting with 
Mr. Horowitz.
    Mr. Horowitz. Thank you, Senator. We regularly do followup 
reviews. So, for example, we are in the middle of a followup on 
the Fast and Furious matter to see if the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF) has implemented the 
recommendations that we made. We just issued our third report 
on Section 215 of the Patriot Act and how the FBI has used 
those authorities. I mentioned the national security letters 
review. We did multiple followups of the FBI's use of those 
authorities. And, in each instance, look at our prior 
recommendations and made new recommendations on top of the old 
ones.
    We regularly make known our recommendations to leadership. 
We make sure we are following up to ensure implementation. In 
some cases, obviously, we initiate additional reviews, but we 
do followup and, in fact, put in place a process by which we 
are now periodically sending our open recommendations report to 
the Deputy Attorney General and the Attorney General so they 
can see how many are open and how long they have been open and 
what they are about. And, we modeled that, frankly, after this 
Committee's letter to us and the House Oversight and Government 
Reform Committee's letter to us annually about open 
recommendations so that we can make those known to the 
Department's leadership.
    And then, finally, in terms of transparency, we make all of 
our reports, our audits, and reviews public, subject to, 
obviously, classification issues. So, in some instances, we are 
not able to do that, but where the law allows us to make it 
public, we will make it public.
    Senator Baldwin. Mr. Linick.
    Mr. Linick. Thank you, Senator. You raise a good point. As 
IGs, we cannot require the agencies to comply with our 
recommendations. So, we can only try to persuade them to do so. 
We can publish those recommendations in our semi-annual 
reports. We can tell Congress and try to exert influence that 
way. So, this is a difficult area for IGs.
    We, too, have a followup compliance review process. We have 
units in our office which do compliance followup reviews. The 
problem is, the agencies can agree all they want to implement 
recommendations, but the rubber meets the road when they are 
actually implementing them, and sometimes agreeing with 
implementing them is not the same as actually implementing 
them.
    We are currently doing a followup review with respect to 
our report or the Benghazi situation. We actually issued a 
report looking at the Accountability Review Board process. And, 
we are also looking at how the agency is complying with our 
recommendations, which we issued in September 2013. But, in 
addition to that, the Benghazi Accountability Review Board 
issued 29 recommendations which are vital to the security of 
our folks overseas, and the extent to which the Department 
complies with those recommendations is absolutely critical. So, 
we are doing a compliance review on the Benghazi ARB reports. 
It is someone else's report, but we are looking to see their 
compliance on that. And, we do that in other cases where there 
are critical recommendations.
    The other thing I would mention is this. Another tool that 
we use to ensure compliance with recommendations is our 
Management Alerts. We have recently issued a number of 
Management Alerts where we found recommendations were not being 
followed, in part because the recommendations were narrow in 
the previous reports. So, we have issued these Management 
Alerts to broaden our recommendations to aim them at senior 
leadership, because compliance with the recommendations has to 
come from the top down. So, using Management Alerts is another 
way we do that.
    And, like IG Horowitz said, our reports are also public, 
and the taxpayer has a right to see what we say and how the 
Department is complying with what we say.
    Senator Baldwin. Mr. Roth.
    Chairman Johnson. To be fair to other Senators, we can come 
back to that in a second round. Your time has expired, Senator 
Baldwin. I would like to go to Senator Peters next.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thanks to each 
of the witnesses today and your testimony, which is very 
interesting.
    Mr. Roth, I know you mentioned that all of you are not real 
popular with the agencies, but I will say you are very popular 
with this Committee. We really appreciate the work that you do, 
the service you give to this country, not only saving taxpayers 
money, but also making sure that the policies that are in 
place, that we put in place and others, are actually followed. 
So, thank you to all four of you for your work and your service 
to this country.
    I would like to address, in fact, one of those policies 
that I think is of interest to the folks on the Committee and 
that deals with homeland security generally, but Mr. Horowitz, 
I would like to discuss briefly the Terrorist Watch List as 
well as the No Fly List. As you know, it can be a serious 
problem if an individual who should be on the No Fly List is 
not on that list for some reason. We are reminded in my area in 
Detroit, we had the so-called ``Underwear Bomber'' on Christmas 
Day back in 2009 that was known to the U.S. Government as a 
potential threat, but was not on the consolidated list.
    But, it is also a problem when folks get on the No Fly List 
when they perhaps should not be on that No Fly List. I am very 
proud to represent a very large Arab American population. In 
fact, the largest Middle Eastern population outside the Middle 
East resides in Michigan, and I hear repeatedly of folks who 
find themselves on this list and they are unsure why they are 
on that list and it disrupts their plans dramatically. In fact, 
I was at an Arab American Chamber of Commerce meeting and heard 
from a number of individuals who have been disrupted and feel 
that they do not have an opportunity for due process to get off 
that list.
    I know your office has looked into this and you have 
studied that and audited that. If you have some recommendations 
for this Committee as to how we might be able to deal with this 
issue, because it certainly raises some civil liberties issues.
    Mr. Horowitz. Senator, we have looked at the issue. In 
fact, to Senator Baldwin's last question, we just completed our 
fifth review of the FBI's management of the Terrorist Watch 
List. There are obviously multiple agencies that deal with the 
Watch List and getting people's names on the No Fly List. We 
have the FBI portion of it, obviously. IG Roth has the TSA's 
portion of it. And, the intelligence community has other 
portions of it.
    But, in our most recent audit, we found that there were 
still both issues as to the FBI's cases and how they were 
getting names both on the list that should be on the list and 
getting names off the list that should not be on the list. And, 
we addressed and have in our most recent report the public 
version--there is a redacted classified version that the 
members, obviously, have full access to--that shows how the 
timing of the removals--speaking specifically on removals now--
has improved, but how there are still issues about how promptly 
the FBI is addressing removing individuals from the Watch List. 
We made a recommendation to the FBI that it evaluates further 
its timeliness metrics and figures out how it can more timely 
remove people from the Watch List when the cases are closed, 
the reviews are closed, when they otherwise learn that those 
individuals should not be on the Watch List.
    Senator Peters. Great. Thank you.
    And, Mr. Roth, good morning. I wanted to followup a little 
bit on this, as well. I also want to say we share the same law 
school, a graduate of Wayne State University in Detroit, both 
undergraduate and law, so it is great to have you here in this 
position here in Washington. And, so, you are certainly very 
familiar with the dynamics in Michigan, as well, from being 
there.
    Now, I have heard complaints from Customs and Border 
Protection, or that Customs and Border Protection agents have 
been consistently asking some of the Muslims in Michigan about 
their religious practices and affiliations as they cross the 
border from Detroit-Windsor, which is a very active border 
crossing, as you know. Has your office investigated some of 
these complaints, and can you talk about some of your office's 
investigations into racial profiling at the DHS and share what 
you have found.
    Mr. Roth. We have not looked at that specific issue, 
Senator, but we certainly would be pleased to do so. Part of 
what we do is a fairly fulsome civil rights--civil liberties 
practice that we share in conjunction with the Office of Civil 
Rights and Civil Liberties within DHS. It is something that DHS 
takes very seriously. But, unfortunately, not having done work 
in that specific area, it is difficult for me to comment.
    Senator Peters. Very good.
    Mr. Horowitz, back to you, your office has a number of 
oversight efforts that are related to the Bureau of Prisons 
(BOP). And, specifically, if you could share any findings that 
might inform Congress's decisions related to the exploding 
price tag. We are now spending nearly $7 billion within the 
Justice Department's budget for the Bureau of Prisons. If you 
could share with this Committee some of your findings or 
suggestions for improving the Bureau of Prisons inmate and 
custody management programs, as well as things related to 
prisoner reentry, which is also a very important aspect if we 
are going to reduce cost.
    Mr. Horowitz. Certainly, Senator. We have done a fair 
amount of work in that area. It is among our top challenges 
that we have put in our two most recent top management 
challenges report. As you note, it is about a quarter of the 
Justice Department's budget. It is an ever-growing percentage 
of the budget. And, it is beginning to crowd out other 
priorities for the Department.
    We have done work to look at the Bureau of Prisons handling 
of its Compassionate Release Program, its handling of the 
Treaty Transfer Program, both of which Congress has authorized 
the Bureau of Prisons to use to deal with inmates who meet the 
qualifications in those programs. We are currently looking at 
the growth in the aging inmate population at the Bureau of 
Prisons, which creates significant issues, including the fact 
that the Bureau of Prisons is now spending $1.1 billion on 
inmate health care costs. That is about 3 percent of the 
Justice Department's budget is going to inmate health care, and 
a growing number, as well. So, we are looking at that, as well.
    On the reentry side, we have looked consistently at halfway 
houses and the operation of halfway houses. We are looking and 
considering how to look further at reentry, whether the 
programs are, in fact, working, and what the metrics show with 
regard to their success rates.
    Senator Peters. Do you have adequate data to perform that 
analysis, particularly when it comes to reentry programs? Are 
there data sets out there that you can access?
    Mr. Horowitz. That is actually one of our biggest 
challenges, Senator, that you have just touched on, which is 
that there is not reliable data that we have found that shows 
recidivism rates for some of these programs, success rates for 
education, training, drug treatment programs, and when we are 
doing reviews, we often have to do the metrics ourselves--in a 
very rudimentary way, but to try and do some metrics around 
that.
    Senator Peters. Right. Something we definitely need to do, 
then.
    Mr. Horowitz. It is critical. If you are going to do 
performance-based reviews of government programs, you need 
strong metrics and underlying data to do that. That is one of 
the biggest challenges we have in the prison area.
    Senator Peters. Great. Thank you so much. Thank you.
    Chairman Johnson. Thank you, Senator Peters.
    Again, I want to acknowledge the good work that Senator 
McCaskill has done on a bill that I hope we can introduce. She 
has been working with Senator Grassley. I have been very 
supportive. I hope this Committee, on a very bipartisan basis, 
can be supportive. It addresses almost all of the issues that 
you are addressing here, so I will give you an extra minute----

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Senator.
    It is always terrific to have you here. I think all of you 
know the affection and affinity I have for your community. As a 
former prosecutor and a former auditor, I understand both the 
power you have and the limitations of the power that you have. 
That is why we have tried diligently in my office to not only 
use your work to inform what we do in the Senate, but also to 
try to do everything we can to support your community.
    I think the legislation that we have worked very hard on is 
getting to a point that it is really good, because I think we 
can address the data matches. I think we can address the 
challenges that you have. And, frankly, Mr. Horowitz, nobody 
understands better than a State prosecutor the frustration you 
have with the FBI. [Laughter.]
    This is a cultural issue within the FBI about sharing 
information, even with local police and local prosecutors. I 
think we can really address a lot of these issues.
    I think, also, providing an appropriation for CIGIE is 
important. I have been very frustrated with the amount of time 
the Integrity Committee has taken with some of the 
investigations. Particularly the investigation into Mr. Edwards 
at DHS, where we were anxious for CIGIE to complete the work as 
we were trying to put pressure to clean up an office that is so 
vitally important to our Nation. Also, the National Archives 
IG. Both of those investigations languished.
    I want to talk a little bit today--I really appreciate, Mr. 
Roth, your characterization first of the importance of 
independence as the coin of the realm, and second, the 
importance of transparency. Let me clarify the different kinds 
of Inspectors General we have. I do not think a lot of people 
understand that the two kinds are completely different animals.
    We have the Presidentially appointed Inspectors General 
that must be confirmed by the U.S. Senate. This provides more 
independence in terms of appearances than the other kinds of 
IGs we have, which are the Designated Federal Entity IGs. They 
are not appointed by the President. They are not confirmed by 
the Senate. They are, in fact, appointed by their agencies. We 
have worked at reforming this because, on its face, that is a 
problem. Now, I do not think people realize that we have more 
of the Designated Federal Entities (DFEs) than we have of the 
Presidentially appointed IGs. Correct me if I am wrong, but I 
believe we have 34 Designated Federal Entities and only 30 
Presidentially appointed.
    So, let me ask you this question. Is there a list of the 
salaries of the Designated Federal Entity Inspectors General?
    Mr. Horowitz. I believe, Senator, it would simply be that 
you would have to look through the public records----
    Senator McCaskill. It is not there.
    Mr. Horowitz [continuing]. But there is no----
    Senator McCaskill. It is not there.
    Mr. Horowitz. There is no list that I am aware of.
    Senator McCaskill. Well, would CIGIE not be in a position 
to request that information? If we are going to talk about 
transparency, we have been trying to get this information----
    Mr. Horowitz. Right.
    Senator McCaskill [continuing]. And guess what? All this 
talk about transparency among the IG community, guess who does 
not want to tell us how much money they are making? The 
Inspectors General in these Designated Federal Entities.
    Now, I am a cynic, too, Mr. Roth. Based on my years of 
experience doing what you do, I started out a cynic. I am 
distrustful of an Inspector General community that does not 
want the public to know how much money they are making. I would 
like your ideas on how we can facilitate getting the 
information about the annual salaries of the Designated Federal 
Entity IG--the majority of the Inspectors General that are out 
there.
    Mr. Horowitz. I will followup promptly on that, Senator.
    Senator McCaskill. Would you be surprised to find out that 
there are Inspectors General in some of these small agencies 
that are making twice as much as the four of you?
    Mr. Horowitz. I would not be surprised. I actually know 
that is an issue in the Inspector General community.
    Senator McCaskill. Is that not a scandal?
    Mr. Horowitz. I think it is a significant issue.
    Senator McCaskill. Well, why would it not be a scandal? Why 
in the world would an Inspector General at the Farm Credit 
Agency be making twice as much as the Inspector General at HHS?
    Mr. Horowitz. I do not know how the pay scales have worked 
out. I do know that for the Presidentially appointed Inspectors 
General, there is also apparently a range of salaries, given 
some of the exceptions that have been put into statutes over 
the years.
    Senator McCaskill. What percentage of the IGs contract out 
their financial statement audits?
    Mr. Horowitz. I do not know the answer to that. I can check 
on that----
    Senator McCaskill. That would be something I think we need 
to find out. I am particularly interested in the Inspectors 
General that are in the Designated Federal Entities. What 
percentage of them contract out their financial statement 
audits? For a bunch of them, that is just almost all they do. 
If they are getting paid twice as much and they are contracting 
out the financial statement audit, Houston, we have a problem, 
do we not?
    Mr. Horowitz. Well, I would certainly want to know what the 
facts were there, Senator.
    Senator McCaskill. Do you keep track of the work product of 
the Inspectors General? And, by the way, for these smaller 
Inspectors General, is it not true that they are not getting 
peer review on a lot of their work because they are not 
adhering to the Yellow Book?
    Mr. Horowitz. I can followup on that, Senator, and talk 
with our Audit Committee about----
    Senator McCaskill. Well, do you not have a pilot program 
looking at whether or not CIGIE can, in fact, begin peer review 
on these reports that they do not adhere to the Yellow Book 
standards? For the record, the Yellow Book standard--you all 
know, that is, in fact, the government approved auditing 
standard. That is the bible for a government auditor. Because 
these are so small, a lot of these DFEs, they do not have the 
capability of actually adhering to Yellow Book standards. And, 
if you do not adhere to the Yellow Book standards, you cannot 
get peer review, is that not correct?
    Mr. Horowitz. We are looking at the issue, and I will 
followup. I have to say, 6 weeks into the job as CIGIE Chair, I 
do not know the answer to that off the top of my head.
    Senator McCaskill. OK. Well, I believe there was a pilot 
program about looking at how CIGIE could help with peer review 
on these reports. If you are not doing very many, and you are 
making twice as much as the IGs in the largest agencies--I 
mean, look at Social Security. Imagine the work you need to be 
doing. What do you make, Mr. O'Carroll? I think you make about 
$170,000 a year?
    Mr. O'Carroll. That is correct, Senator.
    Senator McCaskill. Yes. So, I am trying to figure out what 
is rotten in Denmark here, and I think, Mr. Chairman, we need a 
whole hearing on what has happened. The other part of this that 
is incredibly troubling to me is that in an effort to do away 
with bonuses for this IG community, we inadvertently put them 
in a situation where their salaries are now adjusted according 
to the people who work at their agencies.
    So, let us say we have something like the Federal Reserve, 
and the head of the Federal Reserve, the Board gives them a 
bonus. Well, guess what happens? The IG gets a bonus, because 
he is hooked or she is hooked to the salary of the agency head 
that they are overseeing.
    So, let me see if I get this straight. You have an 
Inspector General who makes what the boss makes if the boss 
gets a bonus. Now, how likely is it that the Inspector General 
will expose that the boss has problems? Guess whose salary is 
going to be impacted? The salary of the Inspector General. Now, 
that is absolutely unconscionable within an auditing community. 
I would have to sit and think, ``now, if I expose the head of 
this agency for wrongdoing, they are not going to get a bonus, 
And if they do not get a bonus, I do not get a salary increase. 
I do not go to $320,000 a year, or $270,000 a year.''
    This is a huge problem, and I would like you, as the head 
of CIGIE, to report back to this Committee and to the Chairman 
about how you would propose us dealing with what is clearly an 
ethical problem within the Inspector General community.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thanks, Senator McCaskill. All good 
questions. Maybe we can address that in this legislation that 
we are about ready to introduce. Senator Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. Thank you very much, Mr. Chairman, and I 
want to thank the gentlemen who are before me right now. I know 
the work you do is essential to the strength of our Government, 
and it truly is, in my opinion, righteous and in accordance 
with the goals of the Committee that is assembled here.
    I just want to jump right in, in the limited time that I 
have, and Mr. Horowitz, I would love to have the opportunity to 
talk to you, if you would ever one day want to come to my 
office, because this line of questioning runs very deep for me.
    So, first and foremost, I imagine all the Inspectors 
General oversee policy procedures, even human resource policy 
procedures, right?
    Mr. Horowitz. Correct.
    Senator Booker. And, then diversity, which is a big issue 
for me, being down here for all of about 16 months, this place 
is not that diverse, and I am talking about the Senate, but I 
would love to know about employment practices, specifically 
within the FBI. We had a courageous statement by the head of 
the FBI talking about issues of race and law enforcement. But 
then today, and I will put this in the record,\1\ we talk about 
the declining rates of blacks and Latinos within FBI agents. 
That is very troubling to me when it comes to the 
investigations that they are doing and often the prosecution of 
the so-called war on drugs and its massive disproportionate 
impact on blacks and Latinos.
---------------------------------------------------------------------------
    \1\ The information submitted by Senator Booker appears in the 
Appendix on page 82.
---------------------------------------------------------------------------
    So, I am wondering if your office does a lot of focus on 
this area of diversity within the ranks of FBI agents as well 
as the other agencies under your jurisdiction.
    Mr. Horowitz. We have not issued any reports specifically 
on the question of the diversity rates. We have done work on 
various hiring, promotion, and removal practices and 
allegations we have received about how those were undertaken 
and whether they were fairly undertaken. But, we have not done 
the broader question----
    Senator Booker. Well, I would strongly encourage you to do 
that. Here we are in a Nation right now where you literally 
have had demonstrations coast to coast, north to south, about 
law enforcement practices. And, one of the things we have seen, 
for example, in Ferguson is that the diversity of the police 
force was an issue.
    Mr. Horowitz. Mm-hmm.
    Senator Booker. And, so, if we have declining rates of 
minority officers in the FBI, that should raise a concern, at 
the very least, and especially when the head of the FBI himself 
is talking about that this is a problematic issue within race 
and law enforcement.
    And, along those lines, I was surprised by the Senator from 
Michigan when it comes to issues of reentry and issues of 
recidivism and that the data that you are trying to find really 
is not there and you are trying to piece it together in what 
sounds like a less than scientifically sound manner.
    Mr. Horowitz. What we have tried to do is take a 
representative sampling of the data that we can get and use 
that, but it is clearly not a large-scale effort that you would 
want to have ready and available when you are looking at these 
things.
    Senator Booker. And, so, we have no objective measures 
within the Bureau of Prisons about how one warden might be 
doing in terms of recidivism rates versus another warden 
holding constant, obviously, crimes and backgrounds and the 
like, correct?
    Mr. Horowitz. I am not aware of that.
    Senator Booker. And, so, that is particularly problematic, 
then, when it comes to the issue of private prisons. If there 
are no standards whatsoever for empowering people that are in 
prison not to come back to prison, there is a perverse 
incentive, a profit model, so to speak, for private prisons and 
private halfway houses to keep that, not virtuous, but vicious 
cycle of people coming back in, correct? Would they not have a 
perverse incentive not to do what is necessary to stop the 
rates of recidivism?
    Mr. Horowitz. There is certainly a risk, Senator, of that, 
and, of course, the flip of that is you would want to know what 
programs and practices are working to put best practices in 
place in contract prisons and, frankly, across all of the 
Federal Bureau of Prisons institutions.
    Senator Booker. Absolutely. And, are you conducting 
investigations of these private prisons and private halfway 
houses? I have a high suspicious of people that are in charge 
of imprisonment of folks, disproportionately minority, 
disproportionately poor, and that have some profit incentive to 
see more people coming into their institutions.
    Mr. Horowitz. And, what we are doing right now, we have two 
reviews going on in private contract prisons. One, we are 
looking at specific prisons and how they are handling safety 
and security issues. We are looking at the broader question, as 
well, as to how the Bureau of Prisons is overseeing private 
contract prisons. The problem with the question of how are they 
doing on recidivism rates is we do not have the data to be able 
to do that across dozens of institutions with our smaller audit 
staff.
    Senator Booker. So, in other words, this is an important 
line of inquiry, but you are telling me you just do not have 
the resources or staff to understand what, to me, is a 
fundamental aspect of our country, this idea of liberty and 
freedom, and we seriously have a problem within our criminal 
justice system. But, you are telling me you do not have the 
staff or the resources to conduct an adequate study.
    Mr. Horowitz. We would not be able to do a broad-based 
study like that, and one of the reasons why we have put it on 
the top management challenges for the Department this past year 
is the need for better performance-based metrics. This is one 
of the examples of that. If you are going to run government 
operations with 200,000 inmates, which is what right now exists 
in the Federal Bureau of Prisons, 19 percent of them in private 
contract prisons--all of those, by the way, are non-U.S. 
nationals, that is where the Bureau of Prisons is housing them, 
in contract prisons--you would certainly like to have the kind 
of data that would allow you to look at who is running the best 
contract prisons, who is running the best BOP institutions.
    Senator Booker. And, then, the last thing, and very quickly 
for me, we have a terrible problem in this country where people 
who--for example, we have the last three Presidents who have 
admitted to smoking marijuana, but the people who actually are 
arrested and incarcerated for use and sale of marijuana, even 
though there is no difference between the races, are 
disproportionately Latinos, African Americans, and poor people. 
Is this something that you are looking at, of why we have a 
selective use of the justice system that disproportionately 
impacts the poor and minorities?
    Mr. Horowitz. We have not undertaken an audit or review at 
this point of that area. I do know from my prior time on the 
Sentencing Commission, the Sentencing Commission has looked at 
some of those issues in some of its prior work, but it is 
certainly an area of interest to us----
    Senator Booker. So, we can talk about this.
    In the last 10 seconds I have, Mr. Roth--and I am hoping we 
can followup on it--you said that the potential shutdown of the 
DHS, the words you used, it would create budget instability and 
make it difficult for coherent management. Can you elaborate on 
that briefly?
    Mr. Roth. Sure. Since October, we have been on a Continuing 
Resolution (CR), which means we do not know from week to week 
what our budget situation is going to look like. So, what 
happens in a Continuing Resolution situation is you basically 
get an allowance that allows you to pay your light bill, pay 
your rent, pay the personnel that you have on board, and really 
nothing else. You are prohibited from engaging in any kind of 
long-term planning, any sorts of management initiatives that 
you believe would improve the Department. So, that is the case, 
of course, from October to this point.
    After Friday, of course, if there is a shutdown, then even 
the administrative portion of DHS will go away. Certainly, the 
oversight part of DHS will go away. And, people will engage in 
jobs necessary to save life and property and do nothing else.
    So, it is a significant challenge for the Department. As an 
oversight entity, we see what occurs during a Continuing 
Resolution and then, certainly, a shutdown, which is you cannot 
improve the Department. You cannot make the Department better 
because it is not possible to put programs in place that will 
do so.
    Senator Booker. I appreciate the indulgence of the 
Chairman. And, so, you are saying even a CR is a threat to our 
national security. It undermines our agency.
    Mr. Roth. Absolutely. I believe that Secretary Johnson said 
it is like driving a car across country where you have a gallon 
of gas and you are not sure where your next gas station is 
going to be. It is simply a stop-gap measure by which you are 
running the Department.
    Senator Booker. Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Booker.
    Let me just respond a little bit. I think, as I have been 
trying to do this Committee, is concentrate on shared purposes, 
shared goals, again, that mission of enhancing the economic and 
national security of America. That is something we share. I 
think we all agree that we should absolutely fund the 
authorized, the legal, the essential elements of the Department 
of Homeland Security. I think we all want to do that, if we 
concentrate in that area of agreement. There is certainly an 
aspect of this funding issue that we do not agree on. Let us 
set that off to the side. It is in the courts now.
    This could be solved tomorrow if President Obama and 
Secretary Jeh Johnson said, OK, let us let the courts decide 
this. Let us fund those essential, the legal, the 
constitutional, the authorized activity of DHS. You would not 
be in this bind, Mr. Roth. So, again, I hope that we can do 
that. It would have been very helpful if we would have at least 
voted to get on the bill so we could start offering amendments, 
so we could open up the process, so we could have the debate, 
the discussion, set up a process where we could find some 
measure of common ground, some kind of compromise. That has not 
happened. That is regrettable. I hope we can do that in the 
future. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Mr. Chairman. I want to thank 
all of you for being here.
    Mr. Horowitz, in your testimony, you pointed out the 
difficulties caused by the failure to nominate and appoint the 
Inspectors General. Too often, you have many vacancies. So, 
when you have those vacancies, you cannot do the oversight that 
we depend on you within the agencies.
    Last Congress, I had joined with Senators Boozman and 
Shaheen to introduce a bill called the Verifying Agency Conduct 
and Needs Through Inspectors General Act, recognizing the 
important work you do. And, really, what we are trying to get 
at is to require the nomination of a person to each Inspector 
General position within 210 days. Now, that is a huge length of 
time. I think these nominations should be made much sooner than 
that. But, basically, to put an outside window on it, to have 
them made within a certain time, and if not, the authority 
would be transferred to the Congress.
    So, can you explain to me what degree are Inspectors 
General Offices impacted by the long-term vacancies and how 
does that undermine what you are trying to do in terms of the 
oversight function that is so important for the Inspectors 
General. And, you identify a number of large agencies without 
permanent IGs. Is this a lack of where does the issue fall? Can 
we not find the talented and skilled people? Is it that people 
do not want to come and be Inspectors General? Or, is it the 
end and it just takes delays in terms of the Administration and 
nominating, so we can understand how to get at this.
    Mr. Horowitz. Senator, I think there are probably several 
different issues that come up when you have an Acting Inspector 
General, particularly for a lengthy period of time. Of course, 
the staff stays, and they are very dedicated. They keep pushing 
ahead on the work and get it done. But, we are constantly 
facing challenges. We are constantly facing issues, as each one 
of us have testified today, to our independence, to our ability 
to get the job done. And, what comes with a confirmed position 
is the ability to stand up and know that you cannot be removed 
other than by the President.
    Senator Ayotte. It gives you the protection to speak truth 
to power, basically.
    Mr. Horowitz. Correct. And, that is a challenge for any 
Acting Inspector General. The best of them, and I had a 
predecessor who served in that role for 15 months and she did 
an outstanding job. But, everybody in the organization was 
waiting to find out who is going to actually lead the 
organization.
    Senator Ayotte. So, where are things getting held up? Can 
you help us understand? Is it that we cannot attract people to 
do this, or is this delays in Administration? Is it a delay in 
Congress? I just think it is important--or, is it a 
combination, and how do we cut through this?
    Mr. Horowitz. I think it is a combination of issues. I have 
been Council of IGs Chair now for 6 weeks, and one of the first 
things I did was meet with the Presidential Personnel Office to 
talk about moving vacancies, and we have sent over resumes of 
candidates, a number of individuals who are interested in 
positions, who are very capable. I think the process needs to 
be sped up on the selection side, on the vetting side, and on 
the confirmation side. I think you see all three at various 
times.
    My predecessor, Glenn Fine, announced he was leaving in 
mid-2010, gave 6 months' or so, I believe, notice, and I was 
not not nominated until the end of July, July 31, I think it 
was, of 2011.
    Senator Ayotte. Wow.
    Mr. Horowitz. And, then I waited 8 months to get confirmed.
    Senator Ayotte. Wow.
    Mr. Horowitz. So, you have a buildup in each of the 
processes, and I had no opposition when I got confirmed. So, I 
think there are at each stage--having gone through the vetting 
process, having waited for the nomination, I think I can say 
that at each of the stages, there could be greater effort to 
move these.
    Senator Ayotte. Excellent. Well, we have one piece of 
legislation, but this is really important, because the work you 
do is very important to the agencies and the oversight and we 
need you to be in there, have that confirmation so that you can 
feel free to speak without, obviously, anyone either in the 
agency or outside the agency trying to remove you. So, I 
appreciate it.
    I wanted to ask Mr. O'Carroll, your testimony on improper 
payments, it is sobering, really, with $8 billion in 2013, 
including more than 9 percent of all Supplemental Security 
Income, SSI program, payments. Unfortunately, we know that it 
is not just SSI payments that we are dealing with improper 
payments. There are some other large programs.
    For example, I have been focusing on the risk of improper 
payments in the Earned Income Tax Credit (EITC) and the 
Additional Child Tax Credit (ACTC). And, according to a 2014 
Inspector General report, the Internal Revenue Service (IRS) 
estimates that $14.5 billion, or 24 percent of EITC payments 
made in 2013, were paid in error. And for the ACTC, Additional 
Child Tax Credit, the estimates are a potential improper 
payment rate for 2013 between 25 and 30 percent, which is 
staggering. The problem is, is that this is a lot of money and 
then it does not go to those people who perhaps deserve it and 
goes to people who do not, and nothing gets my constituents 
more upset than that, as you can imagine.
    So, you mentioned that the Social Security Administration 
has implemented 86 percent of your recommendations. That seems 
high, frankly, compared to what we hear about other agencies, 
obviously, where we see that very few recommendations get 
implemented. So, can you describe the future impact of the high 
rate of adoption of your recommendations. What kind of feedback 
are you getting from leadership in getting them to adopt these 
recommendations? And, are there actions we can take to drive 
other agencies to adopt more IG recommendations, because this 
improper payment issue, I mean, this is one where we are just 
throwing money after money. It is not right. It is not fair. 
And, it is billions of dollars that could be better put to use.
    So, any thoughts you have for us on how do we get the 
agencies to adopt it? What can we do to be more effective in 
helping you implement these recommendations? And, how do we 
drive other agencies to do the same?
    Mr. O'Carroll. I will start at the top in terms of improper 
payments, and you identified it well, that my office is 
representing the Council of IGs on improper payments, in 
general. So, we are dealing with OMB. We are dealing with 
Congress. And, we are identifying $106 billion worth of 
improper payments every year----
    Senator Ayotte. A hundred-and-six billion dollars?
    Mr. O'Carroll [continuing]. Across the government----
    Senator Ayotte. Another reason we need to get the IG 
positions filled sooner, right?
    Mr. O'Carroll. Yes. So, we are identifying that, and we are 
noticing--and this is kind of what you are saying, is that 
through the transparency of it, the accuracy is improving. So, 
since we have been reporting improper payments on it 
originally, it was about 2009, it was about 94 percent payment 
accuracy in government, and that has now gone up to about 96.5 
percent. And, I think a lot of that is because of the 
transparency and everybody having to report what your improper 
payments are. And, just as you mentioned, the problem agencies, 
HHS has a large amount of improper payments that are causing 
problems, much like IRS, and I think those reporting on it is 
focusing the attention.
    Kind of an interesting one on the Earned Income Tax Credit 
that you were talking about. We have just done audit work with 
Social Security in terms of people that are claiming earnings 
so that they can get the Earned Income Tax Credit, but that 
disqualifies them for SSI, or Supplemental Security Income. So, 
they disclaim the wages so that they can get SSI, and at the 
same time, they are still getting an Earned Income Tax Credit. 
So, we are working very closely with the IRS----
    Senator Ayotte. They go hand in hand.
    Mr. O'Carroll. Yes. And, kind of an easy example on that 
one, which is very frustrating, is that the Department of 
Treasury sends the same checks to the same people. So, they 
will be getting a benefit check from one agency and an Earned 
Income Tax Credit from the other----
    Senator Ayotte. And are they talking to each other?
    Mr. O'Carroll [continuing]. And they are not talking to 
each other.
    Senator Ayotte. Oh, you are kidding.
    Mr. O'Carroll. So, that is why I think the identifying of 
improper payments is very important, to plug gaps like that in 
government.
    Senator Ayotte. Well, I know my time is up, but any 
thoughts you have for us, how we can help that. When we do not 
have Treasury and HHS, or Social Security and Treasury, or any 
of these talking to each other, then that is a big problem. So, 
any thoughts you have on how we can better help you make sure 
that we are not sending these multiple checks in a situation 
that would be inconsistent under the law would be tremendously 
helpful. I really appreciate your work. Thank you.
    Chairman Johnson. Thanks, Senator Ayotte.
    Senator Baldwin, if you would like to refresh Mr. Roth's 
and Mr. O'Carroll's minds in terms of the three questions you 
would like them answering.
    Senator Baldwin. Thank you.
    So, in a scenario where you have an audit or an 
investigation conducted by the OIG that recommends changes at a 
Federal facility, a local one, an entity or an office, in our 
case in Wisconsin, a hospital, should the Federal officials in 
Washington of that agency who are charged with overseeing local 
facilities be made aware of those recommendations? That is No. 
1.
    No. 2, how does the IG's Office ensure recommendations are 
being implemented effectively?
    And, No. 3, what role do transparency and communication 
play in ensuring compliance?
    And, before I get to Mr. Roth and Mr. O'Carroll, I wanted 
to go back to Mr. Linick on that first point, in particular, 
that if there are recommended changes in an audit or 
investigation, should those with oversight responsibilities, be 
informed?
    Mr. Linick. So, the analogy in the Office of Inspector 
General for the Department of State, we do not have local 
offices, but we have embassies, approximately 280 of them all 
over the world, and we inspect them. When we do inspections or 
audits, we do notify the senior leadership of the outcome of 
those inspections and audits, so they do not just go to the 
embassy, but they will go to the regional bureau which is in 
charge of that particular embassy and they also find their way 
to Washington, as well.
    Senator Baldwin. Mr. Roth.
    Mr. Roth. Yes. Certainly, if we are looking at a local 
office, many times, our recommendations will not be addressed 
to the person running that local office, but those 
recommendations will be then addressed to, for example, the 
Commissioner, if it is the CBP, or a program manager within 
Customs who has the authority and the ability to effect change. 
So, in many ways, is the recommendations that are addressed to 
people other than the folks who are at that locale.
    Second, to ensure implementation, DHS has, I think, a very 
proactive approach to audit liaison and audit resolution that 
has dramatically changed, for example, the number of open 
recommendations that we have, and it is run by the Under 
Secretary of Management, but ultimately chaired by the Deputy 
Secretary. So, there is a certain high-level engagement as to 
what is occurring with these open recommendations.
    And, the way we ensure compliance of open recommendations 
is that we will keep them open until we get sufficient evidence 
under our auditing standards to believe that the recommendation 
has been satisfied. Oftentimes, that is some sort of 
documentation or other kinds of assurances that they have taken 
our recommendation and they have implemented it in a way that 
makes sense to us. In certain cases, we will go back, as Mr. 
Horowitz has talked about, and do a compliance review to 
actually go back on the ground and figure out whether or not 
those recommendations have been complied with.
    And, then, last, we have, of course, what I call the bully 
pulpit, the transparency and the communication that I think is 
critically necessary to ensure compliance, and we have done 
that in a number of occasions and I think that tends to focus 
the mind, as well.
    Senator Baldwin. And, Mr. O'Carroll.
    Mr. O'Carroll. Senator, one thing that works with us in 
terms of what you are asking on the local level, if we 
identified something, how would it be fixed--the way we work 
with the Social Security Administration is that our audit 
liaison is centralized in their headquarters. So, any 
recommendation that we are make to any component of SSA rises 
to the management level so it is overseen by all of SSA.
    I guess another example of what we do on that is, one, we 
are, of course, publishing it. It is going on our website. It 
is going out to all of our customers whenever we issue an 
audit. Also, one of our oversight committees asked us every 6 
months to provide a report on what recommendations we have 
made, that have not been adopted by the agency. So, that is 
good for oversight.
    Another thing that I do, is I attend once a month--we are 
not considered part of the Commissioner's staff, so I keep my 
independence, but once a month, I go to the executive staff 
meeting, and I report out to all the executive staff of SSA, 
about audits that are of importance. These are the ones that we 
have recommendations on. These are the responses we are getting 
back from Social Security. And, usually, it will be addressed 
there in front of all the peers of each of the components. So, 
if one component is lagging that is going to be brought to the 
attention of all their peers.
    Another thing that we do is the trust but verify part of 
it. After we make the recommendations, we go back to see if 
they are enacted, and if it is problematic we will do another 
just to see if what they told us what happened when they 
corrected the problem, if it really happened.
    An easy example of that one would be SSA, with all of its 
records and information. We were talking earlier about the 
Death Master File. One set of records within SSA is keeping 
track of who all the people are, and whether they are alive or 
dead, and then another system keeps track of the payments that 
are going out, and sometimes the two systems are not talking to 
each other. So, one database says you are dead. The other one 
says that you are getting benefits. So, we have made 
recommendations on that. SSA prioritizes it, and says that they 
are going to fix it, and every 3 years we go back. We do 
another audit and say, we have identified these number of 
people that are listed as dead on one file and alive on the 
other one and bring it to the attention of everybody.
    And, it works quite well that way.
    Chairman Johnson. Thanks, Senator Baldwin.
    Mr. Linick, has Secretary Kerry asked you to open up an 
investigation or inspection of the closing of the Yemen 
embassy?
    Mr. Linick. He has not asked me that.
    Chairman Johnson. Is that something just on your own 
initiative, something you are going to look into?
    Mr. Linick. Well, I cannot really talk about investigations 
and so forth. Those are typically confidential matters. But, we 
initiate our own investigations. The Secretary does not direct 
us to do any of that.
    Chairman Johnson. OK. Mr. Horowitz, in terms of subpoena 
power, is it basically true that you do get push-back from the 
Department of Justice in terms of your ability to subpoena 
people that are no longer employees of the Federal Government?
    Mr. Horowitz. My understanding is last year when this issue 
came up, that the Department of Justice objected to the effort 
by Congress to give us that authority, the concern being that 
we somehow might interfere with Department of Justice 
investigations. To my mind, that can easily be addressed. From 
my former time in the Criminal Division at the Justice 
Department, we dealt with immunity issues and similar issues 
regularly, coordinated among 94 U.S. Attorneys. It is very 
doable.
    Chairman Johnson. Well, let us easily address that, then. I 
mean, we would really like to, because I think that is a very 
appropriate power you need to access the information you need 
to do your investigations and your inspections, so let me work 
with the Committee on that.
    Mr. Horowitz. Absolutely.
    Chairman Johnson. My final question, just as best 
practices, Mr. Linick, you talked about your Management Alerts. 
I was intrigued, reading your testimony about that. It sounded 
like a really good idea. Is that only in your Office of 
Inspector General, or is that happening throughout all the 
Inspectors General? I will ask you, and then I will ask Mr. 
Horowitz, as head of CIGIE.
    Mr. Horowitz. Certainly, in my office, I have issued two 
memos during the course of audits where we have found issues 
that I thought needed immediate attention. One of them, we have 
issued involving BOP's purchase of X-ray machines, where we 
found serious questions about the value of those X-ray 
machines. We, obviously, thought it imperative, once we found 
that problem, to alert the leadership, and so we did that. And, 
we do use that when we find it is necessary to do so.
    Chairman Johnson. But, again, in what way does the 
community, the IG community, share those best practices? I 
mean, is it through CIGIE? I mean, do you have get-togethers, 
conventions? I mean, is that a concerted effort to find out, 
hey, this is really working great in our office. Everybody else 
ought to be doing something similar.
    Mr. Horowitz. We do. We do it both through the individual 
committees, so, for example, in the Audit Committee, they would 
look at, in their peer reviews and other discussions, best 
practices on the audit side, similarly on the investigation 
side. And, then, each year, we have a 2-day conference where we 
get together as a community to share practices across our 
community.
    Chairman Johnson. Does anybody else want to add to that?
    Mr. Roth. Yes. We have done these Management Alerts, as 
well, sometimes in conjunction with a long-term audit. We do 
not want to wait until the audit is completed, because, for 
example, there is a significant management challenge that ought 
to be fixed immediately. So, those are public and we will put 
them on the website.
    For example, we were doing an audit of our--DHS's warehouse 
programs, whether or not those ought to be consolidated, and we 
found a serious health and safety issue that Immigration and 
Customs Enforcement, candidly, tried to hide from us. We were 
able to find it and we were able to issue a Management Alert, 
and as a result of that, a problem that had existed for a 
number of years was fixed within weeks.
    So, it is a highly effective tool. Again, it is that 
disinfecting sunlight, sometimes, that makes a big difference.
    Chairman Johnson. Mr. O'Carroll, it looks like you want to 
press the button there.
    Mr. O'Carroll. Yes, Chairman. I agree with that. It usually 
takes about a year for an audit. So, early on in an audit, if 
we identify a systemic problem or an issue that if it was not 
corrected immediately would have a major effect on the program, 
we do those type of alerts.
    And, if we come up with an issue that does not even require 
an audit, but it is something that needs attention , we will do 
an alert. So, an easy example on that would be the Disability 
Trust Fund for Social Security. On that one, we have done 
reports on the solvency of that Trust Fund and our concerns 
about it and we give it to our stakeholders, to Congress, and 
show that we are not asleep at the switch and we realize there 
is a problem there that needs to be addressed. So, we use 
alerts often.
    Chairman Johnson. Before I turn it over to our Ranking 
Member, I just want to give each of you the opportunity, is 
there something during the questions, during this hearing, an 
issue raised that you were not able to address that you want to 
quickly address now? I will start with you, Mr. Horowitz.
    Mr. Horowitz. I cannot think of anything, Mr. Chairman.
    Chairman Johnson. OK. Mr. Linick.
    Mr. Linick. The only thing I would add to the question from 
Senator Baldwin about ``What can Congress do to help with the 
recommendations being implemented,'' through our Management 
Alerts, the three that we issued last year, the 2015 
appropriations omnibus bill contained explanatory language 
requiring the Department to respond to our recommendations. 
That was very helpful in terms of enforcement. So, I just 
wanted to note that additional point for the record.
    Chairman Johnson. OK, great. Mr. Roth.
    Mr. Roth. I am good. Thank you.
    Chairman Johnson. Mr. O'Carroll.
    Mr. O'Carroll. One thing that Senator McCaskill brought up, 
just to give a little clarity on, was the contracting out of 
financial statement audits and her concern on it. And, I have 
to say, in our case, we do contract out the financial statement 
audit for Social Security. What we do, though, is that we work 
hand-in-glove with whoever gets the contract.
    But, one of the big issues that we are up against is that 
so much now is IT-driven in terms of the management of an 
agency. When you think of the largest social insurance program 
in the world and $2 billion a day going out, information 
security at SSA is so important, and we just do not have the 
expertise and are not able to be hire the best and the 
brightest every year to be taking a look at what deficits or 
weaknesses SSA has in their systems. So, we contract that out. 
Usually, whoever we are contracting with is going to have 
significant resources to be taking a look at those type of 
vulnerabilities. And, then, we work closely with them. So, 
there is an advantage to contracting for the financial 
statement audits.
    Chairman Johnson. Coming from the private sector, we all 
contract out our auditing, and as long as you maintain that 
independence--I think Senator McCaskill, her point was you have 
this Inspector General. They are supposed to be doing the 
inspecting. Why do we not use the resources we have? But, there 
are going to be costs somewhere, and I do not think that is per 
se a problem myself. But, it is worthy in terms of looking 
into. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    I am going to ask a couple of questions, but before I do, I 
have one question I am going to ask of each of you and I am 
going to ask you to be thinking about this question. It is an 
easy one. You have given us--we have asked you different ways--
several of us have--what can we do to help you. What can we do 
to bolster you and strengthen the ability of you and your teams 
to do your job as watchdogs.
    I am just going to ask each of you to give us one idea. If 
we only did one thing that you would have us to do to help 
support you, it could be writing the letters to get more IGs 
out there, the Administration nominating more people, or 
getting these agencies that have five or six, have not had an 
IG for a while, it could be that. It could be something else. 
But, just be thinking about one, if you can only do one thing, 
do this for us. It will help us a lot.
    OK, but while you are thinking about that, I will go back 
to something, and I apologize for being out of the room. I was 
on a teleconference call with my Governor and a bunch of other 
people and sometimes my day job gets in the way from this job 
here, so thank you for letting me be away from my post for a 
while.
    But, as Senator McCaskill briefly mentioned, several years 
ago, the IG for the National Archives, Paul Brachfeld, was 
placed on administrative leave while CIGIE and the Office of 
Special Counsel investigated allegations of misconduct. It took 
nearly 2 years until these investigations were fully resolved, 
and during that 2 years, the Archives was deprived of a 
permanent Inspector General, as you will recall. Mr. Brachfeld 
was stuck waiting in limbo on administrative leave.
    Maybe I will direct this to you, Michael, but as the new 
Chair of the Inspector Generals Council, I just would like to 
hear from you, your analysis of what went wrong with the 
Archives investigation and what steps you and others are taking 
to ensure that such a situation does not happen again, 
certainly on your watch.
    Mr. Horowitz. Certainly. I think there are two issues. One 
is to ensure that the investigation by the Integrity Committee 
happens within a timely manner, or happens in a timely manner. 
And, what I have been talking to the FBI, which chairs the 
Integrity Committee, and talking with members of the Council of 
IGs, is how do we put in place timeframes for conducting the 
reviews and investigations. I think that would help to better 
manage the process.
    I think we have to take other steps, as well, frankly. The 
Integrity Committee process needs some revising. It has a Chair 
that is at the FBI, managing a process with IGs, Special 
Counsel, Office of Government Ethics, trying to manage another 
IGs office that is doing the investigation, and I think there 
needs to be better accountability for all the participants in 
that process. I look forward to working with the Committee on 
the statutory issues, but also with the FBI and the members of 
the Integrity Committee, on the procedural issues that are 
involved. So, I think we can do both.
    In terms of the placing an IG on administrative leave, 
whether a Presidential or non-Presidentially appointed IG, I 
think the IG Act needs to address that issue. We are making a 
recommendation as a community of IGs that that needs to be 
considered. There are removal procedures, but there are not 
administrative leave procedures in the IG Act. They need to be 
clearly defined. There need to be clear bases for when that can 
occur, and for how long it can occur, and under what conditions 
can it occur, because that was a concern for many of us, that 
an IG could be put on administrative leave indefinitely, if you 
will. That is not good for the agency. That undermines the 
independence of Inspectors General. And, that undermines the 
confidence of this Committee and the public at large.
    Senator Carper. All right. Thank you. When might we look 
for those recommendations?
    Mr. Horowitz. I am working now with our membership and the 
FBI on proposing new procedures, which is what we can do 
without legislative change, and I have met with staffs of this 
Committee, other Committees, to talk about proposed legislation 
that I know the Congress is considering that would also address 
these issues.
    Senator Carper. Good. Well, we will look forward to those 
recommendations. Thank you.
    Mr. Roth, as the Inspector General at DHS, you have 
testified about the impact of the Department of operating on a 
Continuing Resolution and the uncertainty of future funding. 
Would any of the other witnesses care to weigh in and to 
address this issue? I call it stop and go budgeting. It is 
happening, and we have done it, and we do it too much. We are 
still doing it too much. Sometimes, we shut down the 
government, as you know, which is awful, and it is a hugely 
wasteful thing. But, the others, if I could. We have heard from 
you, John, but we would like to hear from the other IGs, if you 
care to address this situation, which is, of course, again on 
crisis budgeting.
    Mr. Horowitz. I will tell you, in the 2\1/2\ years I have 
been IG, I have faced the budgeting process where I do not 
think in any year I have been here I have had a budget on 
October 1 that I can plan around. It has come in either 3 
months or 6 months into the year. And, it is very difficult to 
plan when almost 80 percent, I believe, of our costs are 
personnel costs. It is all about who we can hire and whether we 
can hire, and it is simply impossible to plan for hiring if you 
do not know 9 months from now whether you are going to continue 
to have the kind of budget that would allow you to hire people 
behind it. It is a very big challenge.
    Senator Carper. All right. Thank you. Mr. Linick.
    Mr. Linick. Yes. I would agree with IG Horowitz. In fiscal 
year 2013, our appropriation was reduced almost $6 million 
between the full-year CR and sequestration, and for an office 
like ours, which is trying to grow and strengthen oversight, it 
makes it very difficult.
    Senator Carper. Mr. O'Carroll, last word on this question.
    Mr. O'Carroll. Well, one, we are independent. We get a 
special appropriation apart from Social Security. They are 
supportive of us and we have been very fortunate in terms of 
our appropriations. However, over the last few years, as 
everyone well knows, we were going from Continuing Resolution 
to another, which kept our base flat, and at the same time, our 
costs were going up, and with cuts on top of that, we have had 
a 10-percent reduction in staff over the last few years. So, as 
all the demands are going up, our resources are declining. So, 
we do need a sustainable budget into the future so that we can 
make these important plans.
    Senator Carper. All right. Thank you.
    The Chairman reminds me we have to wrap up. Can I ask each 
of you to just give us a couple of sentences on the one take-
away, if we only have one take-away that we take away with us, 
what would that be? A to-do list for us.
    Mr. Horowitz. From my standpoint, Senator, it would be 
ensure that the FBI complies with the Section 218 provision 
that the Congress put in place in the Appropriations Act.
    Senator Carper. All right. Thank you. Mr. Linick.
    Mr. Linick. From my point of view, it is funding for our 
overseas contingency operation, Operation Inherent Resolve, for 
which we have joint oversight responsibilities with the United 
States Agency for International Development (USAID) OIG and 
Department of Defense (DOD) OIG. We are basically taking money 
out of our existing budget to fund these responsibilities.
    Senator Carper. All right. Thank you. Mr. Roth.
    Mr. Roth. I would say it is engaged oversight, Senator, to 
read our reports, look at our reports. If you have questions 
about our reports, we are available to brief you on them. But, 
then, hold the agencies accountable for what it is that you 
find.
    Senator Carper. All right. Thanks. Mr. O'Carroll.
    Mr. O'Carroll. Senator Carper, I would say we need an 
integrity fund, which is what I was saying at the beginning. In 
terms of all the billions that are being recovered by SSA and 
by us, if we could be using those again to prevent fraud and 
identify improper payments, it would help.
    To give you an example, SSA doing continuing disability 
reviews, bringing a person back in to see whether or not their 
health has improved, has a 15-to-1 return on investment----
    Senator Carper. Oh, wow.
    Mr. O'Carroll [continuing]. So, if that type of money is 
appointed to that, that will help. In my case, we have the 
Cooperative Disability Investigative Units. Those are returning 
10-to-1 on 9-to-1, to be exact. But, again, if we had 
sustainable money from an integrity fund, that would really 
help us.
    Senator Carper. Good. Thank you all. Thank you.
    Chairman Johnson. Thank you, Senator Carper. I want to 
thank all my colleagues for their attendance, for their 
thoughtful questions.
    I want to thank our witnesses for your thoughtful testimony 
and your answers.
    This hearing record will remain open for 15 days, until 
March 11, 5 p.m., for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:56 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
